2311 Douglas Street CX : E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-891
JOHN LEHMANN,
Petitioner,
v.
NICOLE HAIMS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), 1 certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 8477 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 19th day of March, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

  

Affiant

A GENERAL MOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September &, 2023

  

Notary Public

 

eas Oudraw-h. Chale

39418
